BECKER GALLAGHER
Briefs

and

DoNNA J. WOLF, J.0.
JULIE A. KERSHNER, J.0.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
Cayman Finance and Recovery and Insolvency
Specialists Association of the Cayman Islands in
Support of Petitioner in 19-277, HSBC Holdings PLC,
et al. v. Irving H. Picard, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 30th day of September, 2019:
Thomas J. Moloney
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, NY 10006
(212) 225-2460
tmoloney@cgsh.com

Counsel for Petitioners
Roy T. Englert Jr.
Robbins, Russell, Englert, Orseck,
Untereiner & Sauber LLP
2000 K Street, N. W
4th Floor
Washington, DC 20006
(202) 775-4503
renglert@robbinsrussell.com

Counsel for Respondent
Irving H. Picard

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Kevin H. Bell
Nathanael S. Kelley
Securities Investor Protection Corporation
1667 K Street, NW
Suite 1000
Washington, DC 20036
(202) 371-8300
kbell@sipc.org
nkelley@sipc.org

Counsel for Securities Investor
Protection Corporation
Jason P. Gottlieb
Counsel of Record
Daniel C. Isaacs
Valerie Sirota
Morrison Cohen LLP
909 Third Avenue
New York, New York 10022
(212) 735-8600
j gottlieb@morrisoncohen.com

Counsel for Amici Curiae
Cayman Finance and
Recovery and Insolvency
Specialists Association of the
Cayman Islands

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2019.

ctJ

DonnaJ. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary
[seal]

